<html>
<title> - HEARING ON THE NOMINATION OF ROBERT WALLACE TO BE ASSISTANT SECRETARY FOR FISH, WILDLIFE, AND PARKS AT THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 116-33]
[From the U.S. Government Publishing Office]









                                                         S. Hrg. 116-33

                  HEARING ON THE NOMINATION OF ROBERT
                   WALLACE TO BE ASSISTANT SECRETARY
                  FOR FISH, WILDLIFE, AND PARKS AT THE
                       DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov 
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
36-933 PDF                 WASHINGTON : 2019 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, -
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director 
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Enzi, Hon. Mike, U.S. Senator from the State of Wyoming..........     5

                               WITNESSES

Wallace, Robert, Nominated to be Assistant Secretary for Fish, 
  Wildlife, and Parks, Department of the Interior................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Carper...........................................    12
        Senator Booker...........................................    18
        Senator Capito...........................................    19
        Senator Cardin...........................................    20
    Response to an additional question from Senator Markey.......    21
    Response to an additional question from Senator Rounds.......    21
    Responses to additional questions from:
        Senator Sullivan.........................................    22
        Senator Wicker...........................................    22
        Senator Van Hollen.......................................    23

 
 HEARING ON THE NOMINATION OF ROBERT WALLACE TO BE ASSISTANT SECRETARY 
    FOR FISH, WILDLIFE, AND PARKS AT THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                         TUESDAY, JUNE 4, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Cramer, Braun, Rounds, 
Sullivan, Ernst, Cardin, Whitehouse, Markey, Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider the nomination of Rob Wallace to be 
Assistant Secretary for Fish, Wildlife, and Parks at the 
Department of the Interior. Once confirmed, he will oversee the 
U.S. Fish and Wildlife Service and the National Park Service. 
His confirmation will be especially important, as neither of 
these agencies have Senate-confirmed leadership at this time. 
He will play a central role in managing fish and wildlife for 
the American public. That includes combatting invasive species, 
recovering endangered species, protecting migratory birds, 
restoring fisheries, and conserving and enhancing wildlife 
habitat.
    I have known Rob Wallace for over 35 years. Without 
question, Rob is the right person for this job. Throughout his 
long and distinguished career, Rob has struck the proper 
balance between wildlife conservation, habitat management, and 
the use of our public lands. Rob's experience and leadership in 
Wyoming and in our Nation's capital are ideally suited for this 
critically important position.
    Throughout his 45-year career, Rob has served in a variety 
of jobs that directly relate to the two Federal agencies that 
he is being nominated to oversee. Rob began his career as a 
seasonal park ranger in Grand Teton National Park. Since then, 
Rob has served as Assistant Director of the National Park 
Service, as Chief of Staff for Wyoming Senator Malcolm Wallop, 
as Staff Director of the U.S. Senate Energy and Natural 
Resources Committee, as Chief of Staff for Wyoming Governor Jim 
Geringer, and as manager of U.S. Government Relations for GE 
Energy.
    Rob currently serves as President of the Upper Green River 
Conservancy, the Nation's first cooperative conservation bank. 
Rob co-founded the Upper Green River Conservancy to protect 
core sage grouse habitat in the ecologically and energy-rich 
upper Green River Watershed in Southwest Wyoming. He built an 
innovative partnership of ranchers, conservation groups, energy 
companies, investors and other stakeholders.
    Rob is also a founding member of the board of the Grand 
Teton National Park Foundation, which promotes the park's 
cultural, historic and natural resources. He is a member of the 
board of the Jackson Hole Land Trust, which protects open 
spaces, wildlife habitat, and working lands across northwest 
Wyoming.
    In addition, Rob serves as a member of the University of 
Wyoming's Energy Resources Council. The Council sets priorities 
for energy-related academics, research and outreach. He has 
also served on the boards of numerous organizations dedicated 
to conserving wildlife and enhancing our national parks.
    With credentials like these, it is no surprise that 
stakeholders from across the political spectrum have 
enthusiastically endorsed Rob's nomination. Dan Ashe, the 
former Director of the U.S. Fish and Wildlife Service during 
the Obama administration, and now the President and now the 
President of the Association of Zoos and Aquariums, wrote, ``I 
have a good context for what creates success in this important 
and challenging position: a passion for the mission of the U.S. 
Fish and Wildlife Service, and the National Park Service.'' He 
goes on to say, ``An appreciation and admiration for the people 
who do the work, a penchant for listening, and a dedication to 
inclusive problem-solving.'' He concludes by saying, ``In my 
view, Rob displays all of these crucial characteristics.''
    Richie Jones, the State Director for the Nature Conservancy 
in Delaware, also endorsed Rob's nomination. He has also 
received the support of over 40 environmental, conservation, 
and recreational organizations, including the National Parks 
Conservation Association, the National Wildlife Refuge 
Association, the Public Lands Council, Ducks Unlimited, 
American Sportfishing Association, congressional Sportsmen 
Foundation, and the Theodore Roosevelt Conservation 
Partnership.
    Confirming Rob is important to the work of this committee. 
The Environment and Public Works Committee has jurisdiction 
over fish and wildlife policy, including the U.S. Fish and 
Wildlife Service. Earlier this year, Congress enacted the 
Wildlife Innovation and Longevity Driver Act, also known as the 
WILD Act. We did so to combat invasive species, to prevent 
wildlife poaching and trafficking, to promote wildlife 
conservation and to protect endangered species.
    So I look forward to working with Rob to implement the WILD 
Act. I am in the process of developing legislation to modernize 
the Endangered Species Act. I continue to engage with State 
fish and wildlife agencies, environmental groups, conservation 
organizations, ranchers, farmers, energy producers, and others 
from across the political spectrum. I hope to gain their 
support and ultimately the support of a bipartisan group of 
Senators for a bill that modernizes the Endangered Species Act 
so it works better for species and for people.
    Rob demonstrated to the Upper Green River Conservancy that 
it is possible to build such a coalition, focused on solving 
the problems of the Endangered Species Act. So I look forward 
to working with him on modernizing this important law.
    Rob Wallace is an outstanding choice for the position of 
Assistant Secretary for Fish, Wildlife, and Parks. I look 
forward to moving his nomination expeditiously through the 
confirmation process.
    I will now turn to Ranking Member Carper for his opening 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much, Mr. Chairman. Mr. 
Wallace, welcome. I want to welcome you and your daughters this 
morning.
    Also, I would like to welcome Senator Mike Enzi, one of our 
favorite colleagues. I listened to the Chairman's opening 
statement, it sounds like you have his support, and Mike Enzi's 
support, Dan Ashe's support, Richie Jones' support from 
Delaware, a whole host, like a Who's Who of organizations here 
that represent and look after the fish and wildlife, endangered 
species and habitat protection, conservation. This is one of 
those deals where you may just want to ask somebody to make a 
motion, and we just vote.
    Senator Barrasso. So moved.
    [Laughter.]
    Senator Carper. We can all take an early lunch.
    Seriously, we appreciate your willingness to do this. It is 
always great to have Mike Enzi in the room, and we appreciate 
your family being here, too. We appreciate your willingness to 
serve in this role as Assistant Secretary for Fish and Wildlife 
and Parks. I think it has to be a great job. Of all the jobs 
you could have, this has to be one of the best.
    The U.S. Fish and Wildlife Service and the National Park 
Service are two agencies that, as we know, play critical roles 
in managing and protecting our Nation's most treasured natural 
resources and public lands. I am sure you will agree, given 
your experience as a park ranger, as a youngster, and as 
someone who has lived a life that I think you can be proud of.
    In Delaware, we are extremely proud of our two national 
wildlife refuges, and one of the Country's newest national 
parks, the First State National Historical Park. Our refuges 
are home to threatened and endangered species, and people from 
all over the world travel to Delaware to visit these refuges, 
as well as our national park.
    Overseeing these agencies and beloved public lands is no 
small task, but one that you seem prepared for, and I believe 
are passionate about. I especially appreciate the statement in 
your testimony, and this is a quote from you, ``Bipartisan 
solutions are always the lasting ones. Those are words of 
wisdom.''
    I could not agree more. And I hope that we will be able to 
count on you to bring that balanced approach to the 
Administration's Department of the Interior.
    Unfortunately, having said that, unfortunately, the 
Department and the U.S. Fish and Wildlife Service in particular 
have taken actions in the last couple of years that could 
jeopardize our Nation's wildlife without bipartisan support 
from Members of Congress. Specifically, the Administration has 
proposed regulation that could dramatically alter 
implementation of the Endangered Species Act, one of our 
Nation's most popular and effective environmental laws. These 
regulations could undermine the science that is supposed to 
drive species protection decisions.
    This Administration has also adopted an unprecedented legal 
opinion relative to the Migratory Bird Treaty Act, a stance 
that former top Fish and Wildlife Service officials from both 
Republican and Democratic administrations have vehemently 
opposed. What is more, the Trump Administration has reassigned 
dozens of Department of Interior senior executive service 
employees without good reasons, which is reportedly creating a 
culture of fear within the Department. Surpassing the expertise 
of career public servants is an injustice to natural resources 
that the Department is tasked with managing.
    All of these actions, along with a number of others, are 
deeply concerning. Mr. Wallace, I would just say, as this 
committee considers your nomination, I hope you will heed these 
concerns and clearly convey a willingness to moderate some of 
these trouble actions. I also hope that we can work together to 
find bipartisan opportunities that support both solid science 
and conservation.
    I believe that tackling climate change is one such 
opportunity. And due to climate change, our treasured national 
parks and refuges in the west are increasingly beset by 
catastrophic fires. Worsening storms are damaging our coastal 
parks and refuges.
    Recently, the National Parks Conservation Association found 
that out of 417 parks surveyed, 96 percent faced significant 
air quality problems. You will learn more about how you will 
work to address these challenges. I believe it is now more 
important than ever that we work together to make sure our 
parks and our refuges are more resilient to climate change so 
that Americans may have the opportunity to visit these places 
for generations to come.
    Mr. Wallace, you also possess a great deal of expertise in 
habitat conservation and mitigation. You and I have discussed 
your work in both Wyoming and in Delaware on projects that mean 
a great deal to each of us and to this committee. Clearly, you 
understand the importance of mitigating negative impacts on our 
environment. I believe that understanding provides another 
great opportunity for you to lead within the Department of the 
Interior.
    So we look forward to hearing how you will utilize this 
expertise as Assistant Secretary for Fish and Wildlife and 
Parks if confirmed. Right now, we need qualified leaders who 
are committed to safeguarding our natural resources. I feel 
confident that you are up to that challenge.
    Thank you again for joining us. Again, welcome to your 
family. We look forward to hearing your testimony and to the 
conversation that will follow your testimony. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Seeing that Senator Enzi is here, I think if there is any 
Senator that is mentioned in this committee, who is not a 
member of this committee, the No. 1 person on that list would 
be Mike Enzi, as you talk about his 80-20 rule, a good way to 
get things done legislatively and in a bipartisan way and 
working for the way.
    Senator Carper. Absolutely. I was in an Aspen Institute 
seminar in Prague last week, and we focused on U.S. relations 
with China, U.S. relations with Russia. We talked about Mike 
Enzi and the 80-20 rule. So you are all over the charts and all 
over the map.
    Senator Barrasso. With that, let me welcome to the Senate 
Committee on Environment and Public Works Senator Mike Enzi, 
Senior Senator for Wyoming, who will do the introduction. 
Senator Enzi, thanks so much for joining us today.

             OPENING STATEMENT OF HON. MIKE ENZI, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Enzi. Mr. Chairman. Chairman Barrasso and Ranking 
Member Carper, it is my privilege to introduce Rob Wallace, who 
is testifying in front of your committee today on his 
nomination to serve as Assistant Secretary for Fish, Wildlife, 
and Parks at the Department of Interior.
    I have known Rob for many years, probably most of his life. 
I don't think there could be a better choice to fill the 
position. I am going to repeat some of the things that Chairman 
Barrasso said. I am a retailer, and I know that when you run an 
ad the first time, hardly anybody gets it. If you run it again, 
a few more do. And I would be willing to run this several times 
if it would help on the nomination.
    Rob was born and raised in Wyoming, where he quickly 
learned the important role that the Department of Interior 
plays in the upkeep of our State's natural beauty. In fact, 
Rob's first job after college was with the National Park 
Service. He served as a seasonal ranger in Grand Teton National 
Park. For 5 years, Rob helped with the preservation and 
maintenance of one of our Nation's finest parks.
    His passion for our Nation's public lands sent him here to 
Washington, where he handled energy and environment issues for 
former Wyoming Senator Malcolm Wallop, and before leaving 
Capitol Hill, he served as staff director of the Energy and 
Natural Resources Committee. He returned to Sheridan and the 
incredible Big Horn Mountains, until Rob once again came back 
to Washington, where he served as Assistant Director for the 
National Park Service for congressional and Legislative 
Affairs.
    During this time, he supervised the Reagan administration's 
legislative agenda for national parks, which included 
readjusting visitor entrance fees, providing resources to fight 
the 1988 forest fires, and adding several new units to the 
national park system. In 1989, Rob became Senator Wallop's 
Chief of Staff, before heading back to the Senate Energy and 
Natural Resources Committee in 1991, to again serve as staff 
director.
    I first met Rob in 1995, when he served as Chief of Staff 
to the Wyoming Governor Jim Geringer, and I was in the State 
legislature. These days, Rob is still involved in Wyoming and 
the management of our public lands. Rob serves as the president 
of the Upper Green River Conservancy. Now, that is a sage 
grouse habitat bank that partners with ranchers, energy 
companies and conservation groups that work together to protect 
critical sage grouse habitat.
    Rob's career and character reflect a man willing to step up 
and serve his community and Country. His years of experience at 
Interior and in the halls of Congress have well suited him to 
this new chapter. I am pleased to introduce him to you today, 
and I hope you will give his nomination full and fair 
consideration.
    [The prepared statement of Senator Enzi follows:]
    Senator Barrasso. Thank you for joining us, Senator Enzi. 
We will have another opportunity tomorrow to introduce Rob, 
because this is one of those positions that requires hearings 
in two committees, the Environment and Public Works Committee 
and the Energy Committee. So I look forward to seeing you again 
tomorrow morning in that committee as we introduce our friend, 
Rob.
    You are welcome to stay as long as you like. I know you 
have a pressing schedule, but thanks for being with us and 
joining us today, Senator Enzi. Thank you.
    Now, I would like to welcome to our committee the nominee, 
Rob Wallace, the nominee to be Assistant Secretary for Fish, 
Wildlife, and Parks at the Department of the Interior. I want 
to remind you; your full written testimony will be made part of 
the record. I look forward to hearing your testimony. I see 
some of your family are here. I know many of your friends are 
here. So, please, begin at your convenience.
    Mr. Wallace. With the opening statement, Senator?
    Senator Barrasso. Please, and if you would like to 
introduce your family, as well.

    STATEMENT OF ROBERT WALLACE, NOMINATED TO BE ASSISTANT 
  SECRETARY FOR FISH, WILDLIFE, AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Wallace. Absolutely. Chairman Barrasso, Ranking Member 
Carper and members of the committee, thank you for having me 
here today. I am grateful to the President for nominating me to 
this position, and thank Secretary Bernhardt for his support.
    I would also like to recognize family members who are here 
from Wyoming today, my wife, Celia, who is not only a 
remarkable partner but epitomizes the spirit of bipartisanship, 
having worked for both a Democrat and Republican member of the 
Senate years ago.
    My oldest daughter, Morgan, just finished her sophomore 
year in engineering at Wake Forest University, and is down from 
New York where she is doing a renewable energy internship this 
summer. And my youngest daughter, Ella, finished fourth grade 
and cannot be here today, because she is home studying for the 
SSAT in the event she has to apply for a new school next fall.
    [Laughter.]
    Mr. Wallace. The four of us live a mile south of Grand 
Teton National Park and the Yellowstone ecosystem. Each year, 
our community hosts millions of visitors who come to play in 
two of the world's majestic national parks. They also marvel at 
the abundant wildlife we all enjoy, thanks to wise management 
by State and Federal officials, and the National Elk Refuge, 
located in the heart of our valley.
    But I know that simply living in a special place isn't 
sufficient justification to ask for your support to oversee two 
of the world's most celebrated agencies, the National Park 
Service, and the U.S. Fish and Wildlife Service. So I would 
like to explain a little bit about how I got here.
    My journey began decades ago when I was hired right out of 
college as a seasonal park ranger in Grand Teton National Park. 
For the next 5 years, I patrolled the park's rivers and lakes, 
worked with the mountain rescue team, enforced the game and 
fish regulations, performed law enforcement operations and 
emergency medical services on the park's highways, and traveled 
on skis for days at a time across the Yellowstone and Grand 
Teton back country. And in the fall, if my park work ended 
early, I worked at an elk hunting camp at a nearby national 
forest.
    But it wasn't the daily adventures that had the most 
profound effect on me. It was the political issues that swirled 
around every aspect of my job. Here was a place where 
dignitaries from around the world had traveled to attend the 
Second World Conference on National Parks, and where the 
President of the United States came to relax. Up the road, in 
Yellowstone, a raging debate was brewing over how to wean 
grizzly bears off human garbage. And in the Tetons, vibrant 
conversation was underway about fire management, search and 
rescue, visitors' use, and resource protection.
    In an effort to find a way to get more involved in these 
issues and others, I quit my park job and volunteered on a 
campaign for Malcolm Wallop, who was running for the U.S. 
Senate from Wyoming. His race succeeded, and suddenly I had a 
front-row seat to some of the most consequential energy, 
wildlife and natural resource issues in a generation.
    Starting my Senate career as an LA, following the EPW 
committee, and ending up as the minatory staff director of the 
Senate Energy and Natural Resources Committee, I was here when 
Congress tackled the Alaska Lands legislation, a crippling oil 
embargo, the Three Mile Island nuclear accident, the Exxon 
Valdez oil spill, the restructuring of the U.S. electricity 
industry, controversial endangered species issues, such as the 
spotted owl and the snail darter, and much more.
    I also broadened my understanding of new park 
authorizations, fee legislation, concession oversight and the 
importance of timely communications with Congress, while 
heading the Park Service's office of congressional Relations. 
Later, as chief of staff to the Governor of Wyoming, I was in 
the middle of wolf reintroduction in Yellowstone.
    I ended my time in Washington working for GE, where my 
primary responsibility was leading a policy team that focused 
on the deployment of clean energy technologies in the United 
States and around the world. Over the years, I also became a 
champion of public-private partnerships, through serving on 
boards of several natural resources organizations, whose 
missions were to help fund infrastructure projects, augment 
wildlife research budgets, and provide opportunities for young 
people to work and learn on our public lands. Today, I work on 
the frontiers of the Endangered Species Act in southwestern 
Wyoming, bringing ranchers, regulators, conservationists, and 
industry leaders together to protect large-scale habitats of 
the greater sage grouse, while removing barriers to multiple 
use.
    Along the way, I have learned so much, especially that no 
one ever wins by winning everything, that bipartisan solutions 
are always the lasting solutions, and that the key success to 
management is recruiting good people and trusting them to do 
their jobs.
    Finally, if confirmed, I want to stress my commitment to 
work constructively with Congress on behalf of our parks, 
refuges, fish, and wildlife. If well-meaning people engage in 
good faith and communicate effectively, the benefit to these 
national treasures can be unlimited.
    I thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wallace follows:]
   
   
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Thanks so much for your testimony. 
Welcome to your family here today.
    Throughout this hearing, and with questions for the record, 
the committee members are going to have the opportunity to 
learn more about your commitment to public service for our 
great Nation.
    I have to ask a couple of questions for the record, which 
we do of all nominees. The first is, do you agree, if 
confirmed, to appear before this committee or designated 
members of the committee and other appropriate committees of 
Congress and provide information, subject to appropriate and 
necessary security protection, with respect to your 
responsibilities?
    Mr. Wallace. I do.
    Senator Barrasso. And do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of information are provided to this committee and its staff and 
other appropriate committees in a timely manner?
    Mr. Wallace. Yes.
    Senator Barrasso. And do you know of any matters, which you 
may or may not have disclosed, that might place you in any 
conflict of interest if you are confirmed?
    Mr. Wallace. I do not.
    Senator Barrasso. I will now begin with questions. Then we 
will alternate back and forth, Senator Carper will go after I 
do.
    Can you just explain a little bit about how your 
experiences that you have had prepared you to oversee the 
National Park Service and the Fish and Wildlife Service? You 
talked a bit about it in your opening statement. Anything else 
that comes to mind in terms of specific experience? I know you 
have been a rescue ranger, worked the back country, have seen 
it from all different levels.
    Mr. Wallace. I think one of the great things about being 
here at this time in my career is having seen a lot of 
different aspects of both the Park Service and the Fish and 
Wildlife Service and the Endangered Species Act, to the point 
where you see the power of good people coming together to solve 
complicated problems. I have seen that throughout my career. I 
know you all work with it every day in the committee.
    But it is the belief, as I said in my statement, people 
working in good faith on complicated issues can achieve 
remarkable, good things.
    Senator Barrasso. And along that line, I think about the 
American Water Infrastructure Act that we got through the 
Senate 99 to 1, it authorizes increased funding for things like 
watercraft inspection stations, in order to stop the spread of 
aquatic invasive species. The committee also led the enactment 
of the WILD Act, Wildlife Innovation and Longevity Driver Act, 
requires the specific agencies to develop strategic plans to 
reduce invasive species, on lands that they manage, and 
provides, actually, cash prizes for innovative solutions to 
better combat the invasive species.
    What is your assessment, if I could, of the invasive 
species threat to our Nation's wildlife in the national park 
system, and can we better use and coordinate efforts along 
those lines?
    Mr. Wallace. That is a question I have thought a lot about 
since the President nominated me for this position. We have, 
Senator Barrasso, as you know, invasive species in Wyoming, 
whether it is cheat grass or lake trout in Yellowstone or even 
trying to prevent quagga mussels from getting into the Snake 
River drainage and getting all the way down into the Columbia 
River. Every time I heard the word invasive species, I think it 
is just going to turn out like a bad vampire movie, because it 
is something that whatever you do, you are not going to be able 
to curtail.
    I think, if confirmed for this position, it is a chance to 
really think through what the departments are already doing, 
and see if we have to take our game up to a different level. 
Because they are everywhere.
    Senator Barrasso. I am thinking about the time you were 
chief of staff for Governor Geringer. He served at the same 
time Senator Carper was a Governor, so we have the State side 
of this, then we have the Federal side of it. Do you have any 
thoughts on how we can foster better coordination between 
Federal and State wildlife agencies? Because States are putting 
a lot of money into wildlife efforts as well.
    Mr. Wallace. I have. The word partner is a very easy word 
to say, we all say partner, but it is a lot harder to do. It 
takes a lot of work. What do you mean by partnerships? It is 
respecting the government-to-government partnerships between 
tribes and between States and sometimes local communities, it 
is respecting the partnerships between NGO's and conservation 
groups that care deeply.
    And a partnership is a partnership. That is what you commit 
to, you work with a State, you get the best advice from the 
professionals that work on an issue, and you work 
constructively toward a solution.
    Senator Barrasso. And I want to pick up on the word 
partnership, because, as you used it, under the leadership of 
this committee, the reauthorization of what is the Partners for 
Fish and Wildlife program was enacted into law in March. It is 
a voluntary program encouraging U.S. Fish and Wildlife Service 
and private landowners, because I had asked you about State and 
Federal, but I am talking about now U.S. Fish and Wildlife and 
private landowners to work together on habitat conservation and 
restoration projects. Can you talk about proactive, voluntary 
conservation efforts, by landowners, private entities, when it 
comes to protecting wildlife and their habitat?
    Mr. Wallace. I look forward to working with you and the 
committee and others and implementing that Act, if confirmed.
    Senator Barrasso. So there is an important role, working 
with the private landowners as well, and other private 
entities, in terms of working along those lines.
    As Assistant Secretary, you are going to oversee both the 
Fish and Wildlife Service and the National Park Service. 
Although these agencies have fundamentally different missions, 
the authorities often overlap, certainly on lands across the 
west. You have seen it first-hand in Grand Teton and 
Yellowstone National Parks. The lands provide habitat for 
important species and are also drivers of the local economies. 
You see it all around Wyoming.
    If confirmed, how would you balance the diverse and 
sometimes competing missions of these two different agencies 
that you will oversee?
    Mr. Wallace. I think, Senator, the issue there is the 
interagency working groups that have come together on grizzly 
bears and others that we have seen throughout Wyoming and I am 
sure in other parts of the west. It is making sure those 
interagency groups are working together, coordinating with one 
another and not creating confusing data for the public to 
digest and try and understand.
    Senator Barrasso. Thank you. Senator Carper.
    Senator Carper. I was happy to hear the name Jim Geringer. 
We served together 6 years, I was elected in 1992, he was 
elected in 1994. Wonderful man, and it was a joy to serve with 
him.
    I don't mean to ask a bunch of yes or no questions. I would 
ask three of them, and then I'll ask questions that will take 
more than yes or no to respond to.
    The first question is, do you agree with our Nation's 
leading scientists, including those within the Department of 
Interior, who have concluded that climate change is real, is 
caused in large part by humans, and is impacting fish, wildlife 
and parks? Do you agree with that?
    Mr. Wallace. Senator, I do agree that climate change is an 
issue and that humans have a very important role in that 
situation.
    Senator Carper. That is good. Thank you. Second question. 
Do you question the conclusions of the Fourth National Climate 
Assessment that stated our Nation's ecosystems and economy are 
at grave risk in the decades to come if we do not take climate 
actions today?
    Mr. Wallace. Senator, to be perfectly honest, I haven't 
read the assessment. I am aware of it, along with the IPCC 1.5. 
Yes, I am aware of the issues. I know that scientists are 
clearly moving in that direction. But to be fair, I have not 
read the report.
    Senator Carper. I will just ask you to answer again, for 
the record.
    Mr. Wallace. OK.
    Senator Carper. Thank you.
    Last yes or no question. Do you commit to this committee 
that if confirmed, you will not directly or indirectly 
interfere or undermine climate science?
    Mr. Wallace. Senator, I believe in the importance of 
climate science and the independence of science.
    Senator Carper. I will take that, thank you. Followup 
question, if I could. As Assistant Secretary for Fish and 
Wildlife and Parks, what will you do to make our parks and 
refuges more resilient in the face of climate change?
    Mr. Wallace. Let me take a drink of water on that one.
    Senator Carper. I will say it again while you take a drink 
of water. As Assistant Secretary for Fish and Wildlife and 
Parks, what will you do to make our parks and refuges more 
resilient in the face of climate change?
    Mr. Wallace. Let me, if I could, sort of describe my job, 
if confirmed, how I see it, Senator. If you looked at the 
combined assets of both the Fish and Wildlife Service and the 
National Park Service, there is approximately 1,000 units in 50 
States and 5 territories. If you look at, I guess one way I 
would look at your climate question is, to understand where the 
stress is on all of these different agencies, or all of these 
different areas, and have a system in place where you are 
systematically evaluating how they stand.
    So in the example of climate change, we know that the 
Governor of Louisiana is trying to adapt for that anticipation 
by thinking of moving communities up off of southeastern 
Louisiana. You see the Fish and Wildlife Service doing coastal 
resiliency projects in North Carolina with oyster bed 
construction.
    In Alaska, with melting sea ice, it is a completely 
different sort of equation, and how do you evaluate it. And 
also perhaps the coast of Oregon or Washington State, where 
they are worried about ocean acidification.
    But there are also other issues, I think, that adds stress 
to it that I could not ignore if in this position. We talked 
about invasive species, what is habitat fragmentation doing to 
migratory corridors in other parts. If you care deeply about 
historic areas in the National Park Service, what about 
battlefields, like Champion Hills and Vicksburg that may be 
rounded out if the parks focus on that? So I certainly 
acknowledge the climate issue, and I also acknowledge that 
there are other stressors within the system that I would also 
be responsible for.
    But let me tell you how I would look at all three of those. 
First of all, and foremost, follow the law. What does the law 
say you have to do, can't do or should do? No. 1. No. 2 is, 
follow the science. What are your professionals telling you 
about how to solve these problems? And it is not just the 
50,000-foot science, it is the sort of on the ground science, 
by science managers, applied science, if you will. What are 
they telling you to do about the problem?
    Then the third, and I talked about this with Senator 
Barrasso, I think it is very important, it is the role of 
partnerships. You can't solve scale problems unless you can 
figure out how to be a good partner. Sometimes the Federal 
Government is the alpha and the partnership debate, and I don't 
think that is the right construct, especially given so many 
interests from so many groups around the Country to get 
involved.
    Senator Carper. We will take that question; I might come 
back with a question for the record and you can have a chance 
to think about it and respond further. If we have another round 
of questions, I will ask a few more questions. Thank you.
    Senator Barrasso. Senator Cramer.
    Senator Cramer. Thank you. Thank you, Mr. Chairman, thank 
you, Mr. Wallace, for being here.
    When Secretary Bernhardt was going through this same 
process, he and I dug in a little a little bit on a few issues 
that, I don't want to call them North Dakota specific, but they 
are rather North Dakota-centric. One in particular that centers 
around the prairie pothole region, and what I think is somewhat 
of a unique situation for North Dakota, in that our farmers, 
over the last century or so, in our rectangle up there in the 
northern part of our Country, had been such great stewards of 
water that they didn't drain a lot of land when it was vogue to 
do that throughout the prairie. Consequently, sometimes I think 
their good actions earlier have been probably biting them a 
little bit.
    So when it comes to specifically WPAs, or the watershed 
protection area easements that some of our farmers have 
inherited from their great-grandfather or grandfathers, with 
the lack of a clear delineation, historically poor mapping, 
what I consider an inadequate appeals process, lack of 
consistency with NRCS, particularly Swampbuster, enforcement 
inconsistencies, I raised all these issues with the Secretary 
in hopes that we could work on together, between stakeholders, 
partners, politically diverging ideals, in a way to provide 
better clarity for our farmers and avoid what I consider 
sometimes to be enforcement or regulatory takings.
    With your background, it seems to me you like have a great 
background. I was thinking specifically in fact about your sage 
grouse habitat mitigation work. I would just sort of challenge 
you at this level now and then we can certainly get into more 
specifics at a later time, as you get into the job. Just 
looking for ideas on how we can help these farmers, both within 
the legal construct, but then with advice, and like I said, if 
there is a mitigation plan that can accomplish everybody's 
goals while at the same time allowing our farmers to continue 
to grow food for a growing world population.
    I just want to plant that seed with you and look forward to 
a very specific discussion.
    Also, by the way, the Secretary committed to coming out to 
visit with our farmers. If you are confirmed prior to whenever 
that trip takes place, it would be great if you could join him 
on that trip. But first of all, just sort of in general, any 
thoughts about WPA easements and some work that we can maybe 
get done that again, accomplishes everybody's goals without 
further taking from our landowners?
    Mr. Wallace. One of the great things about this job, if I 
am confirmed, is to think about issues that I don't know a lot 
about. Right now, I can tell you this, Senator, if this is 
important to you, I will be committed to learning a lot more 
about it, perhaps coming to visit with you and meet some of 
your constituents and hear first-hand the challenges you have. 
And to the degree that it is within my ability in the 
department to help, given the legal and scientific issues that 
will also be there, more than happy to do that.
    Senator Cramer. I appreciate that. And I think one of the 
things you bring to the job, and you and I had not met before, 
but when you have such a strong endorsement as the two Senators 
from Wyoming have given, it is hard to argue with you, to be 
honest, not just because he is the Chairman, because I am a 
member of two Wyoming Senators' chairmanship, but because they 
are such quality people.
    You seem to be able to bridge the political intricacies 
pretty effectively. That is not a minor issue. As you point 
out, Delaware and Wyoming, we oftentimes find big differences. 
But you seem to have that ability, and I would look forward to 
tapping into that capacity that you have to accomplish these 
things.
    So I am just going to leave it at that for now, but I look 
forward to further discussion.
    Mr. Wallace. I look forward to learning more about it, 
Senator. Thank you.
    Senator Cramer. Thank you. I look forward to further 
discussion.
    Senator Carper. I would add that there is a Wyoming, 
Delaware. And it just south of Dover.
    [Laughter.]
    Senator Carper. I have great affection for Wyoming, 
Delaware.
    Senator Barrasso. Senator Braun.
    Senator Braun. Thank you, Mr. Chair.
    This is always an enjoyable conversation for me, because I 
practice conservation and at home during our recess, will never 
give up that part of it, get a few fishing trips in and so 
forth.
    I think it is sometimes overwhelming, invasive species. I 
have been fighting them on my own properties for years. I 
wonder how far that has gotten out of hand to where we can 
mostly try to contain rather than eliminate. But I don't want 
to focus on that now, I want to focus on what I have observed 
over time and have you weigh in on it.
    Twice during the break, I saw bald eagles on private lakes 
where, my goodness, where until maybe 10, 12 years ago in 
Indiana, when I was on the White River, had not seen a bald 
eagle. And now, they were doing so well, they are starting to 
colonize a lot of small lakes and places where you never 
imagined.
    Beavers, I remember as a kid I saw one on Potoka Lake when 
I was about 15 years old. It was like a rare sighting. Deer 
were basically extinct in Indiana until conservation efforts 
turned around.
    I noticed a lot of good stuff, including otters, to where 
now there is an open season on otters, simply because they have 
been reintroduced and are doing so well. Bobcats would be on 
the cusp.
    So when we talk about fish and wildlife, weigh in on what 
is good that is happening. Because it is depressing, to be 
honest, when we focus on invasive species. I know we need to, 
just, how do we grapple with it? Talk a little bit about what 
you have observed over the last few decades and are really wins 
and pluses, put it in perspective with all the challenges we 
have.
    Mr. Wallace. Well, Senator, I have observed the same thing 
that you have over time. When I was a ranger in the Grand 
Teton, the bald eagles were still at risk. Now, they are 
abundant. We have also seen in Wyoming peregrine falcons come 
back, black footed ferrets, through some very collaborative 
breeding. Sage grouse, which a lot of us have been working to 
keep off the endangered species list. Whooping cranes, grizzly 
bears have come back. They have come back in force in Wyoming.
    So you sure look at the wise management of these wildlife 
laws and say, it has been a success. At the same time, you want 
to know, what can we do better going forward, are there wiser 
ways to manage, to think about species recovery. I am fully 
aware that will be a responsibility of mine if confirmed for 
this job.
    Senator Braun. So in general, then, I think it would be 
fair to say that some of the particulars of especially 
conservation and wildlife preservation, we have a lot of good 
things to talk about. Would you view either invasive species 
and/or climate change as being things that in the near term 
could set back any of that, where we have had such rapid 
progression in the right direction? Do you view either one of 
those, because I agree both are intractable issues. We have to 
find out a way to deal with them.
    Do you see any of the gains we have made in somewhat 
immediate threat, or do you think that is in the longer context 
as well?
    Mr. Wallace. That is a great question, and I think about 
it, too, because climate is on the minds of lots of people, the 
public, members. If you look at what is happening in the 
Florida Everglades with the Burmese python, there are songbirds 
at risk of blinking out down there because of that invasive 
species. In Wyoming, about 25 years ago, a bucket biologist 
dumped a bunch of lake trout into Yellowstone Lake, as 
predators of one of the world's richest natural cutthroat 
populations anywhere in the world. Pound for pound, lake trout 
wins every time over a cutthroat. That was an important food 
group for the grizzly bears during the spawning. It really 
started to upset the entire balance of Yellowstone.
    It took biologists a number of years to figure out they had 
an invasive species problem, and then what to do about it. It 
was more than just letting everybody go out and catch as many 
lake trout as they wanted. Because the lake trout were winning 
that fight every day. They finally brought commercial seiners 
in from the Great Lakes that are catching hundreds of thousands 
of lake trout a year. I talked to the superintendent a few days 
ago, he said they put as much in gill netting down in 
Yellowstone Lake every year to stretch from Yellowstone to 
Naples, Florida, just to get a handle on an invasive species.
    So it goes to your point, Senator, that I think the Federal 
agencies and State agencies need to be observant to identifying 
a potential risk, is it coming, what can you do to prevent it. 
If it is here, how do you stabilize it, and then what do you do 
to reverse it. Those threats, I believe there is an Asian Carp 
Coalition here from members in the Mississippi and the Great 
Lakes. It is a big issue. I would be glad to have support to 
think seriously about that.
    Senator Braun. Thank you.
    Mr. Wallace. Thank you, Senator.
    Senator Barrasso. Senator Markey, welcome.
    Senator Markey. Thank you, Mr. Chairman, very much.
    The Monomoy Refuge, Mr. Wallace, in 2015, the Fish and 
Wildlife Service finalized a revised comprehensive conservation 
plan for the Monomoy National Wildlife Refuge that 
reinterpreted the refuge boundaries to include the waters and 
submerged lands to the west of the refuge. This potentially 
makes it harder for Chatham residents to moor fishing boats, 
hunt or collect shellfish in those waters as they have been 
doing so for years.
    The Trump Administration has advocated for more 
recreational access to public lands, refuges and parks. But in 
the Monomoy Refuge, the Town of Chatham and its residents are 
concerned that they are losing their longstanding access.
    Mr. Wallace, if confirmed, will you commit to working with 
me to ensure public access, while also protecting the 
environment in this special place?
    Mr. Wallace. Senator, I will. I know this is a very 
important issue to you. You have raised it at Interior. I have 
had a chance to learn a little bit about it by speaking with 
your staff recently. If it would be helpful, I would be happy 
to come up there with you to meet with the people in Chatham 
and understand it first-hand. Thank you.
    Senator Markey. Yes, the town of Chatham has been a great 
steward of these waters, dating back more than 60 years. I am a 
strong supporter of our national refuges and believe that our 
beautiful lands and waters deserve protection. It is my hope 
that we can find a resolution to this issue that continues to 
protect and safeguard this unique piece of our Country. So I 
would appreciate it if you would come.
    Mr. Wallace, if you are confirmed, you would be in charge 
of our parks and refuges, a collection of national treasures 
that belong to all Americans. As Senator Carper has already 
noted in his questions, climate change is threatening these 
beautiful wild places. Rainfall is down, wildfires are up, bark 
beetles and pathogens are spreading and species are 
disappearing.
    Mr. Wallace, to followup on Senator Carper's conversation 
with you, will you commit to addressing the climate crisis as 
part of your management of our national parks, wildlife, 
refuges, if confirmed?
    Mr. Wallace. Senator, yes. The key, as I mentioned earlier, 
there are three stools to this. You have to adapt and to 
moderate the consequences of not only climate, but invasive 
species. But to do that within the law, with what the 
scientists are telling us and to work in strong partnership to 
do that work.
    Senator Markey. Yes, I just don't think it is possible to 
responsible stewards and conservationists if we are not dealing 
with the consequences of the climate crisis. It just goes hand 
in glove for the rest of our lives. We have to responsibly deal 
with that.
    The State of Alaska is proposing the development of a 200-
mile industrial road that would cut through the gates of the 
Arctic National Preserve and bisect one of the longest land 
migration routes in the world. Western Arctic caribou herd 
travels as far as 2,700 miles a year from their wintering 
grounds along the Bering Sea to their calving grounds on the 
Arctic coastal plain. This migration is longer than the 
distance between New York and Seattle, and it could be cutoff 
if this road moves forward.
    Mr. Wallace, are you aware of this proposal and the 
planning process currently underway?
    Mr. Wallace. Senator, I am actually not that familiar. Of 
course, from the news, but I haven't been down to the 
Department of Interior yet, having just been the nominee for 22 
days. But I know this is an issue that will be in my office and 
I will be quickly getting up to speed on it.
    Senator Markey. Obviously, this road is going to have a 
huge impact on wildlife and public lands in the region. So we 
are going to be working with you on this overseeing what is 
going to be taking place here. Because it could have severe 
adverse impacts in that region. We are just going to be 
expecting you to work with us to make sure that damage does not 
occur.
    So thank you, Mr. Chairman, very much.
    Senator Barrasso. Thank you very much, Senator Markey.
    We are fortunate to have joining us now the Senator from 
Alaska, who may have some input on that very issue.
    Senator Sullivan. Yes, thank you, Mr. Chairman. I really 
love my colleague, Ed Markey. He and I work together on a bunch 
of things. But his attention to Alaska sometimes astounds me.
    [Laughter.]
    Senator Sullivan. Because with all due respect to the 
Senator from Alaska, I care a hell of a lot more about Alaska 
and my constituents than he does. So I am just trying to get 
the numbers of miles of roads that Alaska has relative to 
Massachusetts. My State is probably, well, I know it is 491 
times the size of Rhode Island.
    Senator Whitehouse. Yes, you had to say that.
    [Laughter.]
    Senator Sullivan. But it is probably at least 200 times the 
size of Massachusetts. And I guarantee you, Massachusetts has 
more roads than my State. So most Alaskans really want roads.
    And here is the thing. Unfortunately, radical environmental 
groups always do this, oh, my God, everything is going to die 
when you build a road, a damned road. In most States, you can 
build a road anywhere you want, and you don't have 80 
environmental groups suing to stop it. But in my State, you try 
to build a road, one damned road, and you will have so many 
outside groups who don't care about my constituents, suing to 
stop a road.
    Most people just assume you can build a road anywhere in 
America. Can't build a road in Alaska, though, because of 
colleagues like my friend, good friend Ed Markey, who want to 
stop roads.
    Senator Barrasso. What is the number on the roads?
    Senator Sullivan. We have a third the number of miles of 
roads than Massachusetts, and we are probably at least 200 
times the size of the State. So just take that one there, Mr. 
Wallace. We are going to be working on making sure--and by the 
way, when you hear the parade of horribles, remember last time 
there was a parade of horrible on the porcupine caribou herd is 
when we built the Trans-Alaska pipeline, one of the most 
important features of American energy independence in certainly 
our Country.
    The parade of horribles was the porcupine caribou herd was 
going to be destroyed. It increased four times the size when 
the pipeline was built. Now, you never hear the radical 
environmental groups saying that, because it wasn't true. The 
same stuff is going on with the development of Anwar, which you 
are going to have a role in, which this Congress passed, the 
President signed, the Alaskan people want it, almost 70 percent 
want it.
    So we are going to work with you on that as well. But don't 
believe the hype. We need roads in Alaska. They are not going 
to harm the caribou. And the outside groups that want to shut 
down Alaska, who none of them live there, by the way, you are 
going to listen to my constituents more than those groups, 
because my constituents want roads, we need roads.
    This just kind of aggravates me, as you can see. I have so 
many Senators caring about roads in my State, when they have a 
lot more roads than my State does. And it is not fair, it is 
not fair. You can't build a road in Alaska, because outside 
groups stop to sue it, sue to stop it. It is outrageous. I wish 
they would come and sue when you guys in Rhode Island or 
Massachusetts wanted to build a road. Nobody sues to stop 
building roads in your States. But they all come to my State.
    So we are going to work on that, and we are going to build 
that road. And it is not going to hurt the caribou at all.
    So let me get to my questions. Mr. Wallace, the Supreme 
Court recently ruled nine to zero, Elena Kagan in a landmark 
decision for Alaska in a case just recently, called Sturgeon v. 
Frost, which was about ANILCA. I am sure you are familiar with 
ANILCA, another huge Federal law that tried to lock up Alaska 
passed in 1980. To just kind of--well, first, have you read the 
Sturgeon v. Frost case?
    Mr. Wallace. Senator, I have not.
    Senator Sullivan. So before we vote on your confirmation, I 
think it is critical that you read that decision. Can I get 
your commitment that you will?
    Mr. Wallace. If it is important to you, Senator, I will do 
that, yes.
    Senator Sullivan. It is a really important case. It 
essentially says that for decades, ANILCA has not been 
implemented correctly by Federal agencies, Fish and Wildlife 
Service, National Park Service. So I would like to get a 
commitment with you, this is a nine to zero Supreme Court case, 
to work with me as you look to revise your regulations that 
would implement the holding of the U.S. Supreme Court nine to 
zero in Sturgeon v. Frost. Can I get your commitment to work 
with me and my office on that?
    Mr. Wallace. Senator, if it is an important issue to you, 
it will be an important issue to me.
    Senator Barrasso. Can I interrupt for 1 second, Senator? 
So, ANILCA, for those of us, it is the Alaska National Interest 
Lands Conservation Act passed in 1980.
    Senator Sullivan. Correct.
    Senator Barrasso. For some other members of the committee 
and the audience. Thank you.
    Senator Sullivan. Thank you. And let me ask, I know I am 
running out of time, I didn't think I was going to talk about 
roads, but my colleague got me spun up on that.
    We have a problem in southeast Alaska with sea otters, 
which have grown in enormous numbers in terms of population. 
They are not listed as endangered. And they are having a very 
negative impact on a very important industry in southeast 
Alaska, shellfish, fin fish, fisheries. I was just in southeast 
Alaska the last couple of weeks and this issue is reaching kind 
of an emergency level proportions.
    Can I get your commitment, Mr. Wallace, if confirmed, to 
work with me and my office on addressing this big issue with 
regard to the sea otter population and its negative impact on 
fisheries in Alaska, which is really, like I said, reaching 
crisis proportions?
    Mr. Wallace. Senator, this is marine mammal issue on taking 
with the sea otter.
    Senator Sullivan. It is, and it is also the decimation that 
they have had with regard to the fishing industry. But the Fish 
and Wildlife Service has oversight and responsibility as it 
relates to this issue.
    Mr. Wallace. I commit to learning a lot more about this 
issue than I know now, and be back to visit with you about it.
    Senator Sullivan. Great. Thank you. Thank you, Mr. 
Chairman.
    Senator Barrasso. Thank you, Senator Sullivan. Senator 
Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, Mr. Wallace. The Chairman speaks very highly of 
you and says that I am probably going to like you. He is a very 
honorable man and I appreciate that very much.
    You do suffer the catastrophic disability of being from a 
landlocked State, however.
    [Laughter.]
    Senator Whitehouse. But I think your sense of nature and 
her beauty is probably animated every time you wake up and see 
the glow of the dawn on the Tetons. You certainly do come from 
a special place in the world.
    I wanted to ask you a little bit about a local issue, and 
then an oceans issue. The local issue is that we have a 
Blackstone Valley park that has been worked on for some time. 
It is still being fully defined. And unlike other national 
parks where you start with basically a big empty piece of land, 
you draw the metes and bounds and you say, that is a park now, 
this park exists in a very developed environment. It is a 
series of specific locations threaded through by the historic 
Blackstone River. It runs up into Massachusetts as well.
    It has been described as like a pearl necklace with all 
these different pearls along the way, and the thread that ties 
them together is the river. But it has been through being a 
protected area, it has been through being a national protected 
river, it has been through a whole variety of iterations on its 
way to becoming a national park.
    So it is not an easy thing to run through. There are a lot 
of bureaucratic hooks and attachment, there is a lot of stuff 
going on. And you have to think about park land in a slightly 
new way to adapt it to the existing developed environment this 
park will inhabit.
    So I am going to need to be able to talk to you about that, 
and to get your attention. Because this is not the type of park 
you are used to out west, where you come to the gate and there 
is the park ranger, and in you go and now you are on park land. 
This is a very different idea of how you can make a park work. 
And not only are we trying to thread the river through all of 
this, we are trying to make sure that the river is traversable 
through all of this area, so that there are put-ins and take-
outs for canoes, and for people who don't want to do that, that 
there are bike paths that connect all of this.
    And all of this is through built areas, and in-built areas. 
So it has been a long, long, long, long, long, slow, process I 
just want to make sure that you will take a good look at this 
when you get in. I want the chance to come and talk you through 
what this has been and where we are trying to get, so that you 
understand that the command level, the complexities of closing 
out this particular park and launching it as a crown jewel of 
New England.
    Mr. Wallace. Senator, I look forward to working with you, 
if confirmed, on this issue. We will certainly know more about 
it the next time we see each other than I do right now.
    Senator Whitehouse. Yes. Well, thank you, and we will get 
together on that.
    Mr. Wallace. OK.
    Senator Whitehouse. The other issue I want to talk with you 
about is oceans. Again, from Wyoming, we are always a little 
bit suspicious of landlocked States and how much interest they 
will have in oceans. The Department of Interior has a long, 
long history of focusing on the west and on inland and upland 
issues, without paying much attention to coastal issues. We are 
now seeing dramatic coastal changes, driven by sea level rise, 
temperature change, acidification, the concerns that you have 
mentioned already.
    But it makes the coasts a matter of real concern. And I 
wanted to let you know that not only is it a matter of really 
grave concern, but it is also a matter of real bipartisan 
opportunity. Ocean plastics is a critical issue. The Interior 
Department website talks about the eight million tons of 
plastic waste that gets dumped in the oceans every year. The 
President signed Senator Sullivan's and my legislation in a 
very, how shall we say, lively Oval Office ceremony. It passed 
unanimously in the Senate. It passed on suspension in the 
House. We are working on another one that we are hoping will 
pass unanimously. Senator Inhofe from Oklahoma has been one of 
our key supporters on all of this.
    So what I want you to take away from this is a, we are 
going to be coming after you on oceans. You need to pay 
attention to this. It is not just upland and inland any longer. 
And b, there are big, big bipartisan opportunities for you to 
help lead and to support in this area. We are often a divided 
committee. On these oceans issues, acidification, plastics, sea 
level rise, coastal wetlands, there is enormous potential. 
Seize the day.
    Mr. Wallace. Again, this is an area, as you noted, I am 
from a landlocked State. But I am certainly aware of the issues 
that members like you in the coastal States are grappling with. 
I look forward to learning a lot more about what we are doing 
at the Department of Interior, the opportunity for 
partnerships, coastal resiliency issues. Thank you, I will be 
smarter on that one, too, the next time I see you.
    Senator Whitehouse. And some day, Mr. Chairman, we might 
even change the name so it is not just the Department of the 
Interior.
    [Laughter.]
    Senator Whitehouse. There are some edges that count too.
    Senator Barrasso. Thank you, Senator Whitehouse. And 
heading to one of those edges, welcome back, Senator Sullivan.
    Senator Sullivan. Mr. Chairman, thanks again. Mr. Wallace, 
I just want to reiterate what my friend, Senator Whitehouse, 
mentioned. There is a great opportunity, we will be introducing 
our Save Our Seas 2.0 legislation here soon, where we think 
there is a great bipartisan opportunity. The President and the 
Administration are really engaged on these issues. And it is 
actually an environmental issue that is solvable. Estimates are 
anywhere up from ten rivers, five countries in Asia constitute 
over 80 percent of the plastic ocean waste in the world.
    So there is a lot we can do. Senator Whitehouse has really 
been the leader on this in the Senate. He and I have been 
working together the last several years on it. We want to bring 
you in on that. It is a great area of bipartisan cooperation 
with everybody on board, industry, environmental groups, the 
Trump Administration, Democrats, Republicans. I think we 
should, as he mentioned, seize the day. So we will have a good 
opportunity to talk about this in our followup meeting 
tomorrow, I think.
    Senator Whitehouse. And I would just commend the Chairman 
and the Ranking Member for their bipartisan engagement on this 
issue as well. It has really been terrific.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Braun?
    Senator Braun. Thank you. I have a bill that proposes that 
we take a defined inventory on the maintenance that is required 
on Federal properties. Indiana Dunes is now a national park. It 
was up there a few weeks ago. One of the original homesteads in 
that area, which was used by the State, it has fallen into 
disrepair, several million dollars' worth of cost.
    What is your opinion on the need to size up to see what the 
cost is? It is maybe estimated $15 billion to $20 billion, no 
one really knows. Do you think with an asset base that large, 
that we ought to have an inventory of what the maintenance 
needs would be?
    Mr. Wallace. Senator, again, having not been down to the 
department yet, it is one of those issues that I would like to 
take back to the professionals down there to see how they are 
thinking about this issue. You are certainly, your question 
makes a lot of sense. You ought to know what you are trying to 
fix before you go fix something. Just on the surface of what 
you just told me, it makes eminently good sense.
    Senator Braun. I would like you to keep that in the 
consideration. Once the process is concluded and you are there, 
I would like you to keep that in mind. Because I think it is 
important, that is a huge figure. We need to know what it is 
and then start tackling the problem. Thank you.
    Mr. Wallace. Thank you, Senator.
    Senator Barrasso. Senator Carper.
    Senator Carper. Mr. Wallace, as I mentioned in my opening 
statement, Delaware is real proud of, not of the fact that we 
were the last State to have a national park designated, but we 
were the first State, Delaware was the first State to ratify 
the Constitution. For seven whole days, Delaware was the entire 
United States of America.
    And we opened things up, we let in Maryland, Pennsylvania, 
New Jersey, and I think it has turned out all right most of the 
time. But our national park actually focuses on Delaware's 
historical, the arrival of the first Swedes and Finns to 
America, in Delaware, the Dutch presence in Lewes, Delaware. 
The last, I believe, the oldest standing house in America is in 
Lewes, Delaware. William Penn came to America in New Castle, 
Delaware, brought with him the deeds to what ultimately became 
Pennsylvania and Delaware. And the Constitution was first 
ratified in Dover, Delaware on December 7th, 1787.
    The National park in Delaware actually tells part of the 
history of our Country through the eyes of Delaware and through 
those sites and places in Delaware that I have just mentioned.
    The National Park Service has identified a location for a 
visitor center at the park, but has not yet committed to move 
to design and construction. The park is also in need of 
additional signage and a deer management plan. I would just ask 
you, if you might be willing to come and visit, if confirmed, 
to visit our State and take a look at our park and some of what 
we are really proud of, and also some of our needs.
    Mr. Wallace. Senator, I would be honored to do that. Thank 
you for the invitation.
    Senator Carper. You are welcome. Thank you for the answer.
    Mr. Wallace. It is a yes, it is a yes.
    Senator Carper. Next question. The Trump Administration has 
reassigned, I am told, several dozens of senior executive 
service employees. Some of these employees were outspoken, 
apparently, on climate change. A number of the reassignments 
have been perceived as retaliatory. Rather than accept 
reassignment, several of these dedicated public servants 
ultimately left the department.
    As Assistant Secretary, would you be willing to provide to 
Congress detailed information about the rationale behind any 
future SES reassignments upon request? I am not asking about 
past, looking back. Not retrospective, but in perspective.
    Mr. Wallace. My sense, Senator, is that there would be a 
lot of privacy information. But again, I am not down there, I 
am not aware of, I am certainly aware because of the news about 
the SES issues. I would tell you personally I value greatly the 
SES people that I have run across during my time in government. 
I just don't know enough about this issue to make a commitment 
one way or the other about it. I am sorry, but I don't.
    Senator Carper. All right. Then I am going to ask, would 
you commit to protect career staff at the Department of 
Interior, moving forward, and to bolster their expertise 
instead of suppressing it?
    Mr. Wallace. I am sorry, could you give me that question 
again, please?
    Senator Carper. Would you commit to protect career staff at 
the Department of the Interior, and bolster their expertise 
instead of suppressing it?
    Mr. Wallace. I absolutely would. I am a big believer in the 
SES program. We have seen the caliber of the leaders that have 
come through, both in the Fish and Wildlife Service and the 
Park Service, they are just the tops. So I am a strong 
proponent of that. I also want a pipeline in place, so if 
somebody moves on, retires, takes another job, there is a bench 
to come in and fill behind them of equally capable people.
    So yes, sir.
    Senator Carper. Thank you. And one last question. People 
travel from around the world to view birds and other wildlife 
at our two national wildlife refuges that sit right on the 
Delaware Bay. Bombay Hook is one of them, and the other is 
called Prime Hook. These special refuges employ less than a 
dozen people, and they have hundreds of acres, cover hundreds 
and hundreds of acres. But they employ less than a dozen 
people. The staff works hard to maintain the refuges and makes 
sure they remain accessible to the public.
    Among other important positions, our refuges have a visitor 
services coordinator and a law enforcement official. As the 
Trump Administration continues Department of Interior 
reorganization efforts, would you commit to us today that 
refuge employees, like Delaware's, will not lose critical staff 
as a result? And how will you work with refuge managers and 
project leaders to make sure their staffing needs are met?
    Mr. Wallace. I would be able to answer this, Senator 
Carper, in a general way, but also with a commitment, if we 
make that visit to the national park together, maybe also talk 
more and see more about the issue that you just raised with me 
personally. But we need motivated men and women in the National 
Park Service and the Fish and Wildlife Service that get up 
every day and whistle while they go to work.
    Senator Carper. Like we do here in the Senate.
    [Laughter.]
    Mr. Wallace. Exactly. I will do it in my job, if confirmed.
    [Laughter.]
    Mr. Wallace. So the health and well-being and the training 
and the morale, there would be 3,000 people under the Assistant 
Secretary for Fish and Wildlife and Parks, who are all going to 
be an important priority to me in terms of their training and 
their morale. I will be happy to learn more about the people in 
the refuge system that you just spoke of.
    Senator Carper. We appreciate your answers. We probably 
have a couple of questions for the record, and if confirmed, we 
look forward to welcoming you, and perhaps your family, to the 
First State. Thanks very much.
    Senator Barrasso. I want to thank you, Senator Carper.
    I do have a letter of support for the nomination of Rob 
Wallace from the National Wildlife Refuge Association. It is 
from Geoffrey Haskett, he is the president of the association, 
who writes, ``We believe Mr. Wallace has the background, 
experience, and leadership abilities to perform in an 
exceptional manner in the position of Assistant Secretary.'' I 
ask unanimous consent to enter this letter into the record.
    Senator Carper. I object.
    [Laughter.]
    Senator Barrasso. Then I have 40 more. And they are 
wonderful letters----
    Senator Carper. I don't object.
    [Laughter.]
    Senator Barrasso [continuing]. of over sportsmen, 
environmental, and conservation groups have written in support 
of the nomination of Rob Wallace. These groups universally 
praised Rob's work experience, his knowledge of our Nation's 
public lands and wildlife. And I ask unanimous consent to enter 
these into the record.
    [The referenced material follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Barrasso. And speaking of whistling your way to 
work, I noticed joining us in the back of the room is Kathi 
Wise, 40 years worked with Malcolm Wallop, worked with you as a 
member of the staff of Senator Wallop's team. Remains a stellar 
employee, whistles while she comes to work every day, really a 
treasure of the Senate. I just want to know if she has always 
had that kind of dedication and hard work and such character 
and credibility, or is that something you instilled in her as 
she was working with you as Malcolm's chief of staff? Or has 
that always been a part of her life?
    Mr. Wallace. It is a legacy issue, Senator.
    [Laughter.]
    Senator Barrasso. Thank you for being here, thank you for 
bringing your family and so many friends. The opportunity for 
other members to put questions in for the record, we ask that 
they submit questions for the record by Thursday, June 6th, 
close of business. The nominee should respond to the questions 
by June 12th.
    I want to thank you and congratulate you, thank you for 
your time and thank you for your testimony today. 
Congratulations.
    [Whereupon, at 11:23 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
